                 

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Labor-Charging Practices
                     at the New Mexico
                     Environment Department
                     Report No. 13-4-0296                    June 17, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Bill Spinazzola
                                                    David Kim
                                                    Janet Lister
                                                    Lela Wong




Abbreviations

AQB                    Air Quality Bureau
CFR                    Code of Federal Regulations
DWB                    Drinking Water Bureau
EPA                    U.S. Environmental Protection Agency
FFR                    SF 425 Federal Financial Report
FY                     Fiscal year
GWQB                   Ground Water Quality Bureau
IGMS                   Integrated Grants Management System
NMED                   New Mexico Environment Department
OGD                    Office of Grants and Debarment
OIG                    Office of Inspector General
OMB                    Office of Management and Budget
Recovery Act           American Recovery and Reinvestment Act of 2009
SHARE                  Statewide Human Resources, Accounting and Management Reporting
SWQB                   Surface Water Quality Bureau




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:       OIG_Hotline@epa.gov                     write:   EPA Inspector General Hotline
  phone:       1-888-546-8740                                   1200 Pennsylvania Avenue, NW
  fax:         202-566-2599                                     Mailcode 2431T
  online:      http://www.epa.gov/oig/hotline.htm               Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                   13-4-0296
                                                                                                              June 17, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Labor-Charging Practices at the
The U.S. Environmental              New Mexico Environment Department
Protection Agency, Office of         What We Found
Inspector General, conducted
this audit to determine whether     We found that three of the four NMED bureaus audited did not always comply with
labor-charging practices at the     requirements found in the Code of Federal Regulations under 2 CFR Part 225.
New Mexico Environment              The Air Quality Bureau and Drinking Water Bureau charged labor, fringe benefits,
Department comply with federal      and indirect costs to federal grants based upon budget allocations instead of actual
requirements. The OIG also          activities performed. Personnel activity reports we received from the Surface Water
sought to determine the effect      Quality Bureau to support charges for labor costs incurred prior to July 2006 did not
of any noncompliance on             meet 2 CFR Part 225 requirements.
amounts NMED claimed under
EPA awards.                         Title 2 CFR Part 225 requires that where employees work on multiple activities or
                                    cost objectives, labor charges be based upon the after-the-fact distribution of an
                                    employee’s actual activity and supported by employee-signed personnel activity
This report addresses the           reports or the equivalent. NMED personnel stated that they charged labor based upon
following EPA Goals and             budget allocations because they thought the practice was acceptable. NMED
Cross-Cutting Strategies:           personnel also stated that the accounting system used for SWQB timekeeping before
                                    July 2006 is no longer accessible and that employee-signed personnel activity reports
  Taking action on climate         from this period are no longer available.
   change and improving air
   quality.                         We questioned $298,159 in labor, fringe benefits, and related indirect costs claimed by
  Protecting America’s             AQB; $2,974,318 claimed by DWB; and $2,733,798 claimed by SWQB. We also
   waters.                          identified an additional $486,305 charged to a DWB-administered grant, which has not
  Cleaning up communities          yet been reported to the EPA.
   and advancing sustainable
   development.                      Recommendations and Planned Corrective Actions

                                    We recommend that the Region 6 Regional Administrator disallow and recover
                                    unsupported costs of $298,159 from AQB; $2,974,318 from DWB; and $2,733,798
                                    from SWQB, unless NMED provides support that complies with 2 CFR Part 225
                                    requirements. We also recommend that the regional administrator ensures NMED
                                    does not claim unallowable costs of $486,305 under the DWB grant, unless it can
                                    provide support that complies with 2 CFR Part 225 requirements. In addition, we
                                    recommend that the regional administrator recover any unsupported costs claimed
                                    under AQB and DWB grants not covered in our cost-impact determination and ensure
                                    that labor-charging practices at remaining NMED bureaus with EPA grants comply
                                    with federal requirements. Region 6 agreed with our findings and four of the five
                                    recommendations. NMED agreed with recommendation 4 and disagreed with the
                                    remaining recommendations. NMED reiterated some of the comments provided during
For further information, contact    our fieldwork, but no additional information or supporting documentation was provided.
our Office of Congressional and
Public Affairs at (202) 566-2391.
                                     Noteworthy Achievements
The full report is at:
www.epa.gov/oig/reports/2013/       AQB and DWB took corrective actions promptly when the issue was brought to their
20130617-13-4-0296.pdf              attention. Both bureaus issued written procedures that require employees to charge
                                    labor hours based upon actual activities performed. We found that employees
                                    complied with these procedures. As of April 14, 2012, labor-charging practices at all
                                    four audited bureaus comply with federal requirements.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                   THE INSPECTOR GENERAL




                                             June 17, 2013

MEMORANDUM

SUBJECT:       Labor-Charging Practices at the New Mexico Environment Department
               Report No. 13-4-0296

FROM:          Arthur A. Elkins Jr.

TO:            Ron Curry, Regional Administrator
               Region 6

This is our report on the subject audit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems the OIG
has identified and corrective actions the OIG recommends. This report represents the opinion of the OIG
and does not necessarily represent the final EPA position. In accordance with established audit-
resolution procedures, EPA managers will make final determinations concerning matters in this report.

Action Required

In accordance with EPA Manual 2750, you are required to provide us your proposed management
decision on the findings and recommendations contained in this report before you formally complete
resolution with the recipient. Your proposed management decision is due in 120 days, or on
October 15, 2013. To expedite the resolution process, please email an electronic version of your
proposed management decision to adachi.robert@epa.gov.

Your response will be posted on the OIG’s public website, along with our memorandum commenting on
your response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want to be released to the public. If your response
contains such data, you should identify the data for redaction or removal. We have no objection to the
further release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyerman, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Robert Adachi, product line director, at (415) 947-4537 or adachi.robert@epa.gov.
Labor-Charging Practices at the                                                                                        13-4-0296
New Mexico Environment Department


                                   Table of Contents 


Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1         

                Background .................................................................................................       1         

                Noteworthy Achievements ...........................................................................                1         

                Scope and Methodology..............................................................................                1

                Follow-Up on Prior Audit Issues ..................................................................                 3


   2	   Labor-Charging Practices Did Not Comply

        With Federal Requirements...............................................................................                   6


                Labor Charges Were Based Upon Budget Estimates .................................                                   6

                Using Budget Estimates Did Not Meet Federal Requirements....................                                       7

                NMED Believed Charges Based Upon Budget Estimates 

                  Were Acceptable ....................................................................................             8

                NMED Claimed Unallowable Costs .............................................................                       9

                Recommendations ......................................................................................            11     

                EPA and Recipient Comments ....................................................................                   11 

                OIG Response ............................................................................................         12     


   3	   NMED Claimed Unsupported SWQB Labor Costs ..........................................                                      13 


                NMED Was Unable to Provide Personnel Activity Reports .........................                                   13 

                Federal Cost Principles Require Personnel Activity Reports.......................                                 13 

                NMED Claimed Unsupported Costs ............................................................                       14 

                Recommendation ........................................................................................           15     

                EPA and Recipient Comments ....................................................................                   15 

                OIG Response .............................................................................................        15     


   Status of Recommendations and Potential Monetary Benefits..............................                                        16




Appendices
   A	   NMED Grants Selected for Review ...................................................................                       17 


   B	   Region 6 Comments on the Draft Report.........................................................                            18 


   C	   NMED’s Comments on the Draft Report and OIG Evaluation ........................                                           21 


   D    D
        	 istribution .........................................................................................................   25 

                                  Chapter 1

                                  Introduction
Purpose
            The U.S. Environmental Protection Agency, Office of Inspector General,
            conducted this audit to determine whether labor-charging practices at the New
            Mexico Environment Department comply with federal requirements. The OIG
            also sought to determine the effect of noncompliance on amounts NMED claimed
            under EPA awards.

Background
            NMED was established by legislative act in July 1991. Its mission is to provide the
            highest quality of life throughout New Mexico by promoting a safe, clean, and
            productive environment. NMED has about 650 employees and 13 bureaus,
            including the Drinking Water Bureau, Surface Water Quality Bureau, Ground
            Water Quality Bureau, and Air Quality Bureau. As of February 27, 2012, NMED
            had approximately $95 million in active EPA grants. NMED had another
            $58 million in grants closed within the last 3 years (i.e., on or after May 2009)
            and subject to the record-retention requirement.

Noteworthy Achievements
            When labor-charging issues were brought to the attention of AQB and DWB by
            an EPA contractor and OIG review, the bureaus took corrective actions and
            promptly issued written procedures that require employees to charge labor hours
            based upon actual activities performed. The EPA contractor’s review was
            conducted from June 7 to 10, 2010, and AQB issued revised procedures on
            June 25, 2010. OIG auditors brought the issue to DWB’s attention in
            January 2012, and DWB issued revised procedures on April 13, 2012.
            As of April 14, 2012, labor-charging practices at all four audited bureaus comply
            with federal requirements. In chapter 2 of this report, we further describe how
            both bureaus complied with federal requirements when the revised procedures
            were issued.

Scope and Methodology
            We conducted this performance audit from May 15, 2012, to February 21, 2013.
            We conducted the audit in accordance with generally accepted government
            auditing standards. Those standards require that we plan and perform the audit to
            obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based upon our audit objectives. We believe that the


13-4-0296                                                                                       1
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our audit objectives.

            Based upon our risk assessment, we limited our audit to the following four
            bureaus: DWB, SWQB, GWQB, and AQB. These bureaus had the highest labor
            and fringe benefit amounts in our audit universe, which consisted of all EPA
            awards with a project end date of May 15, 2009, or later. The audit universe
            cut-off date was established to ensure that all grants selected for review were
            within the 3-year record-retention period required by 40 CFR § 31.42(b).

            We used the information in EPA’s Integrated Grants Management System to
            identify the four bureaus with the most labor and fringe benefits. Our analysis
            included both open and closed awards. We searched the IGMS for grants and
            cooperative agreements awarded to NMED with a project end date of May 15,
            2009, or later. We reviewed the grant budgets to determine EPA’s share of labor
            and fringe benefits for each award. We grouped the awards by NMED bureau and
            then selected the four bureaus with the most labor and fringe benefits. Table 1
            below shows NMED bureaus, total labor and fringe benefits, and EPA’s share of
            labor and fringe benefits.

             Table 1: Labor and fringe benefits by NMED bureau
                                                                      EPA’s         EPA’s percent
             Bureau                                    Total           share           of total
             SWQB                                   $23,740,613     $16,256,496        36.64%
             GWQB                                    13,342,409      12,759,844        28.76%
             AQB                                      6,330,700       4,219,827         9.51%
             DWB                                      4,112,690       3,124,853         7.04%
             Petroleum Storage Tank Bureau            3,445,326       2,849,714         6.42%
             Hazardous Waste Bureau                   3,598,418       2,697,935         6.08%
             Construction Programs Bureau             1,855,433       1,725,227         3.89%
             Radiation Control Bureau                   561,066         451,741         1.02%
             Administrative Services Division
             (Program Support Grants)                    388,898        286,165           0.64%

             Totals                                 $57,375,553     $44,371,802
            Source: The amounts and percentages are from EPA’s IGMS. Bureau information is from NMED.




13-4-0296                                                                                               2
            We obtained an understanding of labor-charging practices at each of the four
            bureaus by:

                 Discussing labor-charging practices and timekeeping procedures with
                  NMED management;
                Interviewing selected employees to determine the labor-charging practices
                  used by NMED; and
               	 Reviewing sample payroll transactions to determine whether actual
                  practices were consistent with the practices described by NMED
                  employees and management, and whether these practices complied with
                  federal requirements.

            We tested payroll samples to determine whether:

               	 Hours that employees recorded on paper timesheets agreed with hours
                  recorded on electronic timesheets.
                 Timesheets were signed by employees and approved by a supervisor.
                 Employees had been paid for the time period.
                 Dollar amounts for each subaccount recorded in the labor-distribution
                  report (i.e., the Human Capital Management Payroll Report) divided by
                  the employee’s hourly pay rate equal the hours reported on the employee’s
                  timesheet.
               	 The distribution of time percentages in the employee’s task profile agree
                  with the distribution on the employee’s timesheet.

            We identified 13 grants to use to estimate the cost impact of labor-charging
            practices that did not comply with federal requirements specified in
            2 CFR Part 225, Cost Principles for State, Local, and Indian Tribal Governments
            (Office of Management and Budget Circular A–87). The 13 grants selected
            represent approximately 63 percent of EPA’s share of labor and fringe benefits
            budgeted for the awards in our universe. The 13 grants are included in appendix A
            of this report.

            The time period covered by the audit varied depending on the bureau. We audited
            AQB and DWB from the inception of NMED’s current accounting system on
            July 1, 2006, to the start of our field work on May 15, 2012. For GWQB and
            SWQB, we extended the audited time period back to July 1, 2004, the earliest
            inception date of the grants selected for cost-impact estimate.

Follow-Up on Prior Audit Issues
            We followed up on NMED’s actions in response to recommendations that
            addressed labor-charging issues made in a December 2010 report issued by EPA’s
            Office of Grants and Debarment based upon a limited review conducted by a
            contractor. The report stated that NMED did not have timesheets or equivalent
            documentation to support personnel costs charged to EPA assistance agreements.


13-4-0296                                                                                  3
            In response, NMED stated that labor hours charged to projects in the report were
            reconciled to actual time spent on the project, and adjustments were made to
            reduce expenditures charged to EPA awards. We reviewed the reconciliation and
            confirmed that adjustments were made; however, the adjustments were not based
            on employee timesheets that complied with federal requirements.

            Report on Internal Control and Financial Management Systems

            The OGD contractor completed a limited-scope review of NMED’s
            administrative and financial management system. The review objectives were to
            assess the effectiveness of NMED’s internal controls and to determine whether
            NMED’s administrative and financial management systems met federal cost
            principles, as well as the terms and conditions of EPA assistance agreements.
            The period reviewed was January 1, 2009, through May 19, 2010.

            The review covered five EPA assistance agreements awarded under the American
            Recovery and Reinvestment Act of 2009. One of the five awards was administered
            by AQB. The award was grant number 2D96690201 in the amount of $1,730,000.
            During the period reviewed by the OGD contractor, NMED drew $88,629. Of this
            amount, $62,193 was reported as unallowable salaries, fringe benefits, and related
            indirect costs. The OGD contractor stated that:

                  NMED did not have timesheets or the equivalent documentation to
                   support personnel costs.
                  Wages and fringe benefits were distributed to agreements as a percentage
                   of an employee’s time.
                  The percentages were intended to approximate the budget.
                  Calculated costs were not reconciled to actual time.

            NMED did not dispute the OGD contractor’s findings. NMED responded by
            stating it would begin using timesheets for staff working on Recovery Act grants,
            and timesheets would be used to identify actual hours charged to the grants.
            NMED also stated that hours charged to the AQB-administered grant were
            reconciled to actual hours, and journal entries were adjusted to reduce Recovery
            Act expenditures. NMED also planned to have written timekeeping procedures
            completed by January 15, 2011.

            OIG Follow-Up

            The OIG asked NMED to provide supporting data for the adjusting journal entry
            that was referred to in its response to the OGD contractor’s report. NMED
            responded by providing the computation sheets that it used to determine the
            adjustments, including a schedule that summarized the number of hours
            employees worked on the grant.




13-4-0296                                                                                      4
            The OIG also asked NMED to provide supporting timesheets or other data for the
            schedule of hours worked on the AQB-administered grant. NMED management
            determined that the hours worked on the grant were based upon records of
            meetings, telephone calls, and documented calendars. NMED management did
            not retain any supporting timesheets or other data because they were unaware of
            the requirement to do so. NMED officials also said they could provide copies of
            emails from employees confirming the hours and tasks they worked on for the
            AQB-administered grant. NMED provided a spreadsheet summary showing
            employee names, dates, hours worked on the grant, and the source of the data.
            The sources of the data were mostly emails.

            Title 2 CFR Part 225, Appendix B, Section 8.h.(4), requires that where employees
            work on multiple activities or cost objectives, salaries and wages be supported by
            personnel activity reports or equivalent documentation. The personnel activity
            reports or equivalent documentation must reflect an after-the-fact distribution of
            the actual activity of each employee, account for the total activity for which each
            employee is compensated, be prepared at least monthly and coincide with one or
            more pay periods, and be signed by the employee.

            NMED has not complied with the requirements cited above or the
            recommendations in the OGD contractor’s report. The adjustments NMED made
            to salaries and benefits in response to the OGD contractor’s recommendations
            were not based upon personnel activity reports, as required by federal regulations.




13-4-0296                                                                                     5
                                    Chapter 2

                     Labor-Charging Practices 

            Did Not Comply With Federal Requirements 

              Two of the four NMED bureaus audited did not comply with federal requirements
              for charging labor costs. AQB and DWB charged labor, fringe benefits, and
              indirect costs to federal awards based upon budget allocation instead of actual
              activities performed. Title 2 CFR Part 225 requires labor charges be based upon
              the after-the-fact distribution of the actual activity. Budget estimates or other
              distribution percentages determined before the services are performed do not
              qualify as support for charges to federal awards. NMED personnel stated that they
              charged based upon budget estimates because they thought it was an acceptable
              method. As a result of the noncompliance, we questioned $298,159 in labor,
              fringe benefits, and related indirect costs claimed by AQB; and $2,974,318
              claimed by DWB. We also identified an additional $486,303 charged to a
              DWB-administered grant, which has not yet been reported to the EPA due to
              financial status report cut-off dates.

Labor Charges Were Based Upon Budget Estimates
              We audited labor-charging practices at AQB, DWB, GWQB, and SWQB.
              We found that GWQB complied with federal requirements and charged based
              upon actual work performed for the entire period covered by the audit
              (July 1, 2004, to May 15, 2012). We also found that SWQB complied with
              federal requirements and charged based upon actual work performed for the
              period July 1, 2006, to May 15, 2012. For the period July 1, 2004, to
              June 30, 2006, based upon employee interviews, SWQB charged based upon
              actual work performed. However, SWQB was unable to provide the required
              personnel activity reports signed by the employees to support the costs claimed.
              This issue is further discussed in chapter 3 of this report.

              AQB and DWB did not always comply with federal requirements. Both bureaus
              charged labor hours based upon budgeted percentages from the inception of
              NMED’s current accounting system—the Statewide Human Resources,
              Accounting and Management Reporting—in July 2006. For AQB, the practice
              continued through June 25, 2010. For DWB, the practice continued through
              April 13, 2012.

              AQB Timekeeping Procedures

              From July 2006 to June 25, 2010, AQB recorded and charged labor costs to
              federal awards based upon budgeted percentages determined for each employee at
              the beginning of the fiscal year. On June 25, 2010, AQB revised its timekeeping
              procedures in response to a review performed by the OGD contractor. The change


13-4-0296                                                                                        6
            required employees to record on their timesheets actual hours worked on each
            project. AQB issued written timekeeping procedures on June 25, 2010, to
            document the new requirements.

            To verify the change in timekeeping procedures, we tested the payroll
            documentation of two employees for the pay period ending October 1, 2010, and
            two employees for the pay period ending April 30, 2010. These two pay periods
            represent labor-charging practices before and after the June 25, 2010, change. The
            two samples allowed us to test compliance with both the old and new procedures.

            Our tests confirmed that AQB recorded and charged labor and associated
            fringe benefits and indirect costs based upon budgeted percentages through
            June 25, 2010; after this date, charges were based upon actual activities
            performed.

            DWB Timekeeping Procedures

            From July 2006 to April 13, 2012, DWB recorded and charged labor costs based
            upon budgeted percentages determined for each employee at the beginning of the
            fiscal year. DWB revised its timekeeping procedures on April 13, 2012, after the
            OIG raised the issue during our January 2012 visit. The new procedures require
            employees to record labor hours based upon their actual activity. DWB issued
            written timekeeping procedures on April 13, 2012, to document the new
            procedures.

            To verify the change in timekeeping procedures, we tested payroll documentation
            for pay periods before and after the April 13, 2012, change. In our samples,
            we included two employees from each of the pay periods ending on the
            following dates: May 11, 2012; February 17, 2012; August 5, 2011; and
            September 19, 2008. Our tests confirmed that DWB recorded and charged
            labor and the associated fringe benefits and indirect costs based upon budgeted
            percentages through April 13, 2012, and actual activities performed after that
            date.

Using Budget Estimates Did Not Meet Federal Requirements
            Federal cost principles require labor charges to be based upon actual activities
            performed. Title 2 CFR Part 225, Appendix B, Section 8.h. requires labor charges
            to be supported by personnel activity reports or equivalent documentation that
            meet the requirements in Section 8.h.(5) to be allowable for reimbursement under
            federal awards. Two of the requirements are that personnel activity reports must
            reflect an after-the-fact distribution of the actual activity of each employee and
            must be signed by the employee. Budget estimates or other distribution
            percentages determined before the services are performed do not qualify as
            support for charges to federal awards.




13-4-0296                                                                                      7
            In the past, both the AQB and DWB did not comply with these requirements.
            As described above, AQB and DWB charged labor and related costs to federal
            awards based upon budget allocation. These costs do not comply with federal
            requirements and are not allowable for reimbursement.

NMED Believed Charges Based Upon Budget Estimates
Were Acceptable
            NMED believed that it was an acceptable practice to charge labor and related
            costs to federal awards based upon budget estimates. NMED’s belief was based
            upon prior audit experience and communications with EPA Region 6.

            When the OIG discussed the issue with NMED in March 2012, NMED personnel
            said that they believed it was a difference in interpretation of the federal
            requirements. NMED had been audited by single auditors every year but had
            never been told that there was an issue with its labor-charging method. Although
            the issue was reported in the administrative and financial management system
            review conducted by the OGD contractor, NMED believed that the requirement to
            maintain timesheets and to charge based on actual activities performed were
            specific to the Recovery Act awards.

            We met with the firm that performed NMED’s single audits for fiscal years 2009
            through 2011 and reviewed relevant audit documentation for FY 2011. It appears
            that the single auditor did not identify the labor-charging issue because the firm
            had different criteria for risk assessment from the OIG. Risk assessment method
            and criteria may vary for each audit based on the auditor’s judgment. An audit
            provides reasonable but not absolute assurance that the information presented is
            free of material misstatement.

            NMED also believed that EPA Region 6 officials approved labor charges based
            upon budget estimates. NMED provided an email from EPA Region 6 dated
            March 21, 2011. According to NMED, the email indicated EPA’s approval of the
            labor-charging practices. However, the subject of the email was “Allocation of
            Rent,” and Region 6 personnel stated in the email that the “EPA is comfortable
            with the Base program being based on the proportion of time.” We discussed the
            March 2011 email with Region 6 staff and they said NMED misunderstood EPA’s
            intent. The email correspondence was concerned with the allocation of rent, and
            labor was referenced because rent was based on labor costs. The email was
            unclear about whether the statement referred to the allocation of facilities cost or
            labor charges. Also, although the email was dated March 2011, NMED has been
            using budget estimates since July 2006.

            NMED also provided a written summary of a February 8, 2011, meeting between
            officials from NMED, the EPA, and the New Mexico Finance Authority.




13-4-0296                                                                                        8
            Although the meeting summary appeared to discuss timesheets, labor hours, and
            allocations, there was no indication of EPA’s approval to charge labor based upon
            budget. Furthermore, the meeting was held in 2011, while NMED had been using
            budget estimates since July 2006.

NMED Claimed Unallowable Costs
            To demonstrate the effect of noncompliance on costs claimed by NMED under
            EPA awards, we initially selected a sample of 13 grants from the four NMED
            bureaus that were audited (see appendix A).

            The noncompliance explained above applied to three of the 13 grants
            (one awarded to AQB and two awarded to the DWB). We identified unsupported
            labor and related costs of $3,758,782 charged to the three grants due to the
            noncompliance. Table 2 below summarizes these costs.

            In addition, NMED was unable to provide the required personnel activity reports
            for FY 2005 and FY 2006 for a grant awarded to SWQB, which is addressed in
            chapter 3 of this report. The remaining nine grants were in compliance and no
            costs were questioned.

             Table 2: Unallowable amounts by NMED bureau and cost category
                                             Direct    Fringe      Indirect
                                             labor    benefits      costs             Total
             Reported to the EPA
               AQB
                 PM96666701                $ 175,349   $ 74,545    $ 48,265          $ 298,159
               DWB
                 F00620309                  1,044,907   436,339     287,271          1,768,517
                 F00620311                    728,575   287,327     189,899          1,205,801
                 Subtotal DWB               1,773,482   723,666     477,170          2,974,318
               Total Reported to the EPA    1,948,831   798,211     525,435          3,272,477
             Unreported
               DWB
                 F00620311                    294,854   108,853      82,598            486,305

             Grand Total                        $2,243,685   $907,064   $608,033    $3,758,782
             Source: NMED accounting records.

            Grant number PM96666701 was the only AQB grant included in our sample of
            13 grants. The latest SF 425 Federal Financial Report available to us for this grant
            was dated October 24, 2011, which covers the period April 1, 2008, to September
            30, 2011, and has a total of $644,811 in federal share of expenditures. We
            obtained the supporting accounting reports from NMED and identified $298,159
            in labor, fringe benefits, and related indirect costs charged to the grant through
            June 25, 2010. These costs are not allowable for reimbursement because they
            were charged based upon budget estimates and did not comply with federal
            requirements.


13-4-0296                                                                                      9
            DWB grant numbers F00620309 and F00620311 were also included in our
            sample. The latest FFR available to us for grant number F00620309 was dated
            December 2, 2010, which covers the period July 1, 2008, to June 30, 2010, and
            has a total of $2,077,426 in federal share of expenditures. This amount reconciled
            to accounting records without exception. As described in a previous section of
            this report, DWB labor-charging practices through April 13, 2012, did not comply
            with 2 CFR Part 225, Appendix B, Section 8.h., and are not allowable for
            reimbursement. Labor, fringe benefits, and related indirect costs claimed through
            April 13, 2012, totaled $1,768,517. This amount is unallowable for
            reimbursement because it was based upon budgeted or predetermined hours.

            The latest FFR available to us for DWB grant number F00620311 was dated
            October 26, 2011, which covers the period July 1, 2010, to September 30, 2011,
            and has a total of $1,401,216 in federal share of expenditures. We reconciled,
            with no exceptions, the $1,401,216 to detailed accounting reports. Labor, fringe
            benefits, and related indirect costs recorded in accounting records through
            April 13, 2012, and included in the FFR, totaled $1,205,801. This amount is not
            allowable for reimbursement.

            We also identified an unreported amount of $486,305 for grant number
            F00620311, which was recorded in accounting records after September 30, 2011
            (the cut-off date of the most recent FFR) and through April 13, 2012 (the date
            DWB issued the new timekeeping procedures to record actual labor hours). This
            unreported amount is not allowable for reimbursement, because it was based upon
            budgeted or predetermined hours. Region 6 should ensure that NMED excludes
            this amount from subsequent claims for reimbursement.

            We provided NMED with a written summary of the results of our audit on
            September 20, 2012, and obtained NMED’s verbal comments in a meeting on
            October 3, 2012. NMED management stated that they are working on addressing
            the DWB issue, but they have reconstructed a work history report as support for
            labor charges through June 25, 2010 for AQB. The work history report was based
            upon data from an AQB project management system called “Envista.” The system
            documented the time employees actually spent monitoring air quality for AQB
            projects across the state. We reviewed the work history report and determined the
            report does not meet federal requirements. The report summarized dates; employee
            names; site names; tasks performed; and the number of hours worked, which
            included monitoring times and minimum driving times. No other hourly data were
            included. However, to meet the requirements of 2 CFR Part 225, Appendix B,
            Section 8.h., the data would have to reflect an after-the-fact distribution of the
            employee’s time and include the employee’s total activity. The data would also
            have to be prepared at least monthly, coincide with one or more pay periods, and be
            signed by the employee. The work history report provided by NMED did not
            present the required information. As a result, we continue to question the costs.




13-4-0296                                                                                      10
Recommendations
            We recommend that the Region 6 Regional Administrator:

               1.	 Disallow and recover unsupported labor costs of $298,159 from AQB and
                   $2,974,318 from DWB, unless NMED can provide support that complies
                   with 2 CFR Part 225, Appendix B, Section 8.h.

               2.	 Ensure that NMED does not claim unsupported costs of $486,305 for the
                   period October 1, 2011, to April 13, 2012, for grant F00620311, unless
                   NMED can provide support that complies with 2 CFR Part 225,
                   Appendix B, Section 8.h.

               3.	 Identify and recover any unsupported costs from AQB- and DWB-
                   administered grants, which are not covered in our cost-impact
                   determination.

               4.	 Ensure that labor-charging practices at any of the remaining nine NMED
                   bureaus that have EPA grants comply with federal requirements.

EPA and Recipient Comments
            The OIG received comments on the draft report from the Region 6 deputy
            regional administrator and the Office of the Secretary for NMED. We held an exit
            conference with Region 6 on April 25, 2013, and with NMED on April 24, 2013.

            Region 6 agreed with our findings and recommendations 1, 2, and 4 and requested
            clarification on the scope of recommendation 3. For recommendations 1 and 2, the
            region stated that it will provide NMED the opportunity to submit documentation
            that substantiates the questioned costs and will take necessary corrective action,
            including the recovery of costs as appropriate. The region said it will address
            recommendation 4 as part of its compliance, review, and monitoring conducted
            under EPA Order 5700.6 A2 CHG 2. During our exit conference, Region 6
            clarified that compliance-monitoring reviews only involve verifying that
            drawdowns were supported by source documentation. The reviews do not include
            interviews or other procedures to ensure that employees charge their time based on
            actual activities performed.

            NMED did not address our recommendations by number. However, it responded
            to recommendation 4 by stating that staff who work on federal grants are now
            required to charge time and labor hours based on actual activities performed and
            maintain personal activity reports. It disagreed with the remaining
            recommendations by requesting that it not be required to return federal funds. In
            addition, NMED reiterated some of the comments provided during our fieldwork,
            but no additional information or supporting documentation was provided. The full
            text of NMED’s comments is included in appendix C of this report.



13-4-0296                                                                                  11
OIG Response
            We agree with the actions Region 6 proposed. However, in connection with
            recommendations 1 and 2, Region 6 should ensure that the documentation complies
            with the timekeeping and labor-charging requirements of 2 CFR Part 225 when
            reviewing any additional documentation from NMED.

            On recommendation 3, we clarified that Region 6 should include in its review all
            open and closed grants that are within the record-retention period established under
            40 CFR § 31.42. Subsection (c) requires records to be retained for 3 years from the
            date of the final expenditure report. Furthermore, subsection (b)(2) states: “If any
            litigation, claim, negotiation, audit or other action involving the records has been
            started before the expiration of the 3-year period, the records must be retained until
            completion of the action and resolution of all issues which arise from it, or until the
            end of the regular 3-year period, whichever is later.” Additionally, we clarified that
            it would not be necessary to review labor charges to AQB grants after June 25,
            2010, and DWB grants after April 13, 2012. Both bureaus complied with the
            federal requirements for labor charging after those dates.

            We advised Region 6 that its regular compliance-monitoring reviews would not be
            adequate to address recommendation 4. Adequate review procedures need to be
            performed to ensure that employees charge their time based on actual activities
            performed, as required under 2 CFR Part 225.

            Since NMED’s comments were already addressed in the draft report, no changes to
            the final report will be necessary. Our position on the reported findings and
            recommendations remains unchanged. The details of our responses to NMED’s
            comments are embedded as text boxes in appendix C.




13-4-0296                                                                                      12
                                   Chapter 3

     NMED Claimed Unsupported SWQB Labor Costs 

            NMED was unable to provide the required personnel activity reports to support
            costs claimed by SWQB for the period July 1, 2004, to June 30, 2006 (FYs 2005
            and 2006). Title 2 CFR Part 225, Appendix A, requires all costs to be adequately
            documented, and Appendix B requires that where employees work on multiple
            activities or cost objectives, charges for salaries be supported by personnel
            activity reports or equivalent documentation that meets federal standards. Because
            of NMED’s noncompliance, we questioned $2,733,798 in labor, fringe benefits,
            and related indirect costs.

NMED Was Unable to Provide Personnel Activity Reports
            NMED could not provide the personnel activity reports required under 2 CFR
            Part 225 to support labor costs charged to the EPA by SWQB in FYs 2005 and
            2006. We selected a labor sample from FY 2005 and requested supporting
            personnel activity reports such as timesheets. SWQB could not provide timesheets
            or equivalent documents signed by employees. SWQB personnel said NMED used
            a different timekeeping system prior to FY 2007, which began on July 1, 2006.
            Although SWQB employees maintained timesheets to accumulate actual hours and
            the timesheets were the basis for recording labor charges in the timekeeping
            system, the timesheets are no longer available. The SWQB finance manager said
            the hard-copy timesheets have been destroyed and the bureau can no longer access
            the prior accounting system to obtain copies of the electronic timesheets. We asked
            employees in our sample about their timekeeping practices in FY 2005. Employees
            confirmed their use of timesheets to record actual labor hours, but they did not have
            copies of these timesheets.

            As a substitute for timesheets, the finance manager provided a labor-distribution
            report, which listed by pay period the hours and projects that each of the three
            employees in our sample charged. NMED personnel said that the labor-distribution
            report is an adequate alternative to providing personnel activity reports. However,
            labor-distribution reports do not contain employee signatures or other evidence of
            employees attesting to the hours charged.

Federal Cost Principles Require Personnel Activity Reports
            Title 2 CFR Part 225, Appendix A, Section C.1.j, requires all costs to be
            adequately documented. Title 2 CFR Part 225, Appendix B, Section 8.h.,
            provides standards for support of salaries and wages under federal awards.

            Appendix B, Section 8.h.(4), states that when employees work on multiple
            activities or cost objectives, the distribution of their salaries or wages will be


13-4-0296                                                                                        13
            supported by personnel activity reports or equivalent documentation that meets
            the standards in Section 8.h.(5). Under Section 8.h.(5), the personnel activity
            reports are requiredto: (1) reflect an after-the-fact distribution of the actual
            activity of each employee, (2) account for the total activity for which each
            employee is compensated, (3) be prepared at least monthly and coincide with one
            or more pay periods, and (4) be signed by the employee.

            The SWQB did not comply with these requirements. Instead, SWQB provided a
            labor-distribution report that provided the pay period, project number, hours
            charged to each project, associated dollar amounts, and various accounting codes
            for each employee. The labor-distribution report is a summary accounting report
            and does not represent personnel activity reports in accordance with 2 CFR
            Part 225, Appendix B, Section 8.h.(4) requirements. In addition, the
            labor-distribution report did not identify the data-entry date or the person, and
            entries were not signed by the employee.

            Appendix B, Section 8.h.(3) states that when employees are expected to work
            solely on a single federal award or cost objective, charges for their salaries and
            wages will be supported by periodic certifications. These certifications will be
            prepared at least semiannually and will be signed by the employee or a
            supervisory official with first-hand knowledge of the work performed by the
            employee. NMED did not have these certifications.

NMED Claimed Unsupported Costs
            Under grant number C999610112, we identified $2,733,798 in labor, fringe
            benefits, and related indirect costs incurred and claimed between July 1, 2004,
            and June 30, 2006. These costs are not allowable because NMED could not
            provide adequate supporting documents to comply with the CFR requirements.
            Grant number C999610112 was the only SWQB grant that was from our sample
            and active prior to July 1, 2006 (the beginning of FY 2007), and within the 3-year
            record-retention period. The grant period is July 1, 2004 to June 30, 2012. The
            latest FFR available to us for this grant was dated June 9, 2008, and covered the
            period July 1, 2004, to June 9, 2008.

            The federal share of expenditures reported was $7,069,500. A review of the
            accounting records provided by NMED showed that they incurred $7,218,427,
            a difference of $148,927 when compared to the amount NMED reported.
            NMED intends to submit an amended FFR showing the correct amount incurred.




13-4-0296                                                                                        14
Recommendation
            We recommend that the Region 6 Regional Administrator:

               5.	 Disallow and recover unsupported SWQB labor costs of $2,733,798
                   claimed under grant number C999610112, unless NMED can provide
                   support that complies with federal requirements.

EPA and Recipient Comments
            Region 6 agreed with recommendation 5. The region stated that it will provide
            NMED the opportunity to submit documentation that substantiates the questioned
            costs and take necessary corrective action, including the recovery of costs as
            appropriate.

            NMED did not address our recommendations by number, but disagreed with the
            recommendation by requesting that it not be required to return federal funds.
            NMED reiterated some of the comments provided during our fieldwork, but no
            additional information or supporting documentation was provided. The full text of
            NMED’s comments is included in appendix C.

OIG Response
            We agree with the actions Region 6 proposed. However, when reviewing any
            additional documentation from NMED, Region 6 should ensure that the
            documentation complies with the timekeeping and labor-charging requirements of
            2 CFR Part 225.

            Since NMED’s comments have already been discussed in the draft report,
            no changes to the final report will be necessary. Our position on the reported
            finding and recommendation remains unchanged. The details of our responses
            to NMED’s comments are embedded as text boxes in appendix C.




13-4-0296                                                                                    15
                                   Status of Recommendations and
                                     Potential Monetary Benefits

                                                                                                                       POTENTIAL MONETARY
                                                 RECOMMENDATIONS                                                         BENEFITS ($000s)

                                                                                                           Planned
 Rec.      Page                                                                                           Completion   Claimed   Agreed-To
 No.        No.                        Subject                         Status1      Action Official          Date      Amount     Amount

  1         11    Disallow and recover unsupported labor costs of        U             Region 6                         $3,272
                  $298,159 from AQB and $2,974,318 from DWB,                     Regional Administrator
                  unless NMED can provide support that complies
                  with 2 CFR Part 225, Appendix B, Section 8.h.

  2         11    Ensure that NMED does not claim unsupported            U             Region 6                         $486
                  costs of $486,305 for the period October 1, 2011,              Regional Administrator
                  to April 13, 2012, for grant F00620311, unless
                  NMED can provide support that complies with
                  2 CFR Part 225, Appendix B, Section 8.h.

  3         11    Identify and recover any unsupported costs from        U             Region 6
                  AQB- and DWB-administered grants, which are not                Regional Administrator
                  covered in our cost-impact determination.

  4         11    Ensure that labor-charging practices at any of the     U             Region 6
                  nine NMED bureaus that have EPA grants comply                  Regional Administrator
                  with federal requirements.

  5         15    Disallow and recover unsupported SWQB labor            U             Region 6                         $2,734
                  costs of $2,733,798 claimed under grant number                 Regional Administrator
                  C999610112, unless NMED can provide support
                  that complies with federal requirements.




      1	    O = Recommendation is open with agreed-to corrective actions pending.
            C = Recommendation is closed with all agreed-to actions completed.
            U = Recommendation is unresolved with resolution efforts in progress.




13-4-0296                                                                                                                                    16
                                                                                                                                              Appendix A
                                                    NMED Grants Selected for Review
Open grants
                                                                                                                                                 EPA’s
                                                                                                                                Budgeted        share of
                                                                                                                   Budgeted     labor and      labor and
NMED            Grant           Project      Project end     Total project       Award        EPA    Budgeted       fringe        fringe         fringe
bureau         number          start date       date            costs           amount       share     labor       benefits      benefits       benefits

AQB        PM96666701-4        4/1/2008       3/30/2012        $ 1,124,765     $ 1,124,765   100%    $ 334,742     $ 110,465     $ 445,207     $ 445,207

DWB        F00620311-4         7/1/2010       6/30/2012          2,626,028       1,969,521    75%     1,478,994      530,045      2,009,039     1,506,779

GWQB       V96618901-E         4/1/2006       9/30/2012          6,690,241       6,246,635    93%     2,690,763      988,450      3,679,213     3,435,258

GWQB       RP96678901-3        10/1/2008      9/30/2013          2,193,750       2,193,750   100%     1,079,820      337,938      1,417,758     1,417,758

SWQB       I00635009-6         7/1/2009       12/31/2011         3,487,668       3,047,500    87%     2,071,564      741,553      2,813,117     2,458,082

SWQB       C999610112-5        7/1/2004       6/30/2012         12,835,033       7,219,500    56%     4,220,230     1,566,827     5,787,057     3,255,127

SWQB       C999610113-5        7/1/2007       6/30/2013         10,834,267       6,357,800    59%     3,393,900     1,227,630     4,621,530     2,712,021

SWQB       C999610114-5        7/1/2009       6/30/2015          7,926,400       4,719,800    60%     2,503,369      777,269      3,280,638     1,953,466

                                            Subtotal                          $32,879,271                                       $24,053,559   $17,183,698

Closed grants
SWQB       I00635008-6         7/1/2007       12/31/2009       $ 4,064,368     $ 3,624,200    89%    $ 2,133,440   $ 709,136    $ 2,842,576   $ 2,534,727

DWB        F00620309-3         7/1/2008       6/30/2010          2,815,733       2,111,800    75%     1,382,897      559,414      1,942,311     1,456,733

GWQB       V97630201-5         7/1/2004       12/31/2009         6,111,111       5,500,000    90%       402,748      140,957       543,705       489,335

GWQB       V96618901-B         4/1/2006       9/30/2011          5,450,140       5,241,635    96%     2,265,057      832,541      3,097,598     2,979,094

GWQB       V96618901-C         4/1/2006       9/30/2011          5,887,473       5,660,635    96%     2,443,886      899,739      3,343,625     3,214,799

                                            Subtotal                          $22,138,270                                       $11,769,815   $10,674,688

                                            Total                             $55,017,541                                       $35,823,374   $27,858,386
Source: Bureau information is from NMED. All other information is from the EPA's IGMS.




         13-4-0296                                                                                                                                          17
                                                                                        Appendix B


             Region 6 Comments on the Draft Report

                UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      REGION 6
                            1445 ROSS AVENUE, SUITE 1200
                                DALLAS, TX 75202-2733


                                            April 8, 2013



MEMORANDUM

SUBJECT:       Response to Office of Inspector General – Draft Report Project No. OA-FY12-0497
               “Labor Charging Practices at the New Mexico Environment Department” dated
               February 21, 2013

FROM:          Sam Coleman
               Deputy Regional Administrator
               Region 6

TO:            Robert K. Adachi
               Director of Forensic Audits
               Office of the Inspector General

As required by EPA Manual 2750, Part 2, Section B(3), I am providing for your review the proposed
management decision in response to the recommendations listed in the Draft Report Project No. OA-
FY12-0497 (“OIG report”). The audit provided five recommendations that affect the overall budget and
subsequently operational capability of the New Mexico Environment Department (NMED) specifically its
Air Quality (AQB), Surface Water Quality (SWQB), and Drinking Water (DWB) Bureaus.

Region 6 agrees with the Inspector General’s findings that three of the four NMED bureaus audited did
not always comply with the federal requirements specified in 2 CFR Part 225. However, the OIG report
acknowledges that the AQB and DWB have already implemented corrective actions and complied with
federal requirements before the issuance of the OIG report. As described below, Region 6 agrees with
Recommendations 1, 2, 4 and 5 and requests clarification on the scope of Recommendation 3.

To ensure that NMED is funded for the important work they completed under the assistance agreements
examined by the OIG, the Region will provide NMED the opportunity to submit documentation that
support the questioned costs. Region 6 will continue to assist NMED with their efforts to implement
labor charging practices that comply with federal requirements.




13-4-0296                                                                                           18
Recommendation No .1 Disallow and recover unsupported labor cost of $298,159 from AQB and
$2,974,318 from DWB unless NMED can provide support that complies with 2 CFR 225, Appendix B,
Section 8.h.

Region 6 will provide NMED the opportunity to submit documentation that substantiates the questioned
costs. The Region will review the documentation and take necessary corrective action, including the
recovery of costs as appropriate. It will also continue to assist NMED with their efforts to implement
corrective actions and comply with federal requirements.

Recommendation No. 2. Ensure that NMED does not claim unsupported cost of $486,305 for the period
of October 1, 2011, to April 13, 2012, for grant F00620311, unless NMED can provide support that
complies with 2 CFR 225, Appendix B, Section 8.h.

Region 6 will provide NMED the opportunity to submit documentation that substantiates the questioned
costs. The Region will review the documentation and take necessary corrective action, including the
recovery of costs as appropriate.

Recommendation No. 3. Identify and recover any unsupported cost from AQB- and DWB-administered
grants, which are not covered in our cost-impact determination.

Region 6 requests clarification regarding the scope of this recommendation, including identification of the
universe of assistance agreements that would have to be reviewed by the Region.

Recommendation No. 4. Ensure that labor charging practices at any of the nine NMED bureaus that have
EPA grants comply with federal requirements.

Region 6 will specifically address compliance with 2 CFR Part 225, Appendix B, Section 8.h as part of its
monitoring of NMED Bureaus under EPA Order 5700.6 A2 CHG 2, Policy on Compliance, Review and
Monitoring. Additionally, Region 6 will establish Standard Procedures for Project Officers to use during
Advanced Programmatic Reviews focused on the evaluation of labor charging practices by NMED
Bureaus. Region 6 will continue to provide technical assistance to the NMED Bureaus to facilitate proper
labor charging practices.
.
Recommendation No. 5. Disallow and recover unsupported SWQB labor costs of $2,733,798, unless
NMED can provide support that complies with federal requirements.

Region 6 will provide NMED the opportunity to submit documentation that substantiates the questioned
costs. The Region will review the documentation and take necessary corrective action, including the
recovery of costs as appropriate. It will also continue to assist NMED with their efforts to implement
corrective actions and comply with federal requirements.

Conclusion

Region 6 has a valued relationship with NMED and an obligation to manage grants in accordance with
federal fiduciary and stewardship standards. The Region fully intends to continue working with NMED to
resolve the findings of the OIG audit and take necessary corrective action. If you have any questions
regarding this response, please contact Missy Milbeck, Comptroller at (214)665-6540 or Donna Miller,
Grants Management Officer at (214)665-8093.


cc:     F. David Martin, Secretary NMED


13-4-0296                                                                                               19
       Butch Tongate, Deputy Secretary NMED
       Vince Lithgow, Chief Financial Officer NMED
       Arthur A. Elkins Jr., Inspector General
       Lela Wong, Project Manager, Office of Inspector General
       Howard Corcoran, Director, Office of Grants and Debarment


bcc:   Ronnie Crossland, Acting ARA
       David Gray, External Affairs Division
       William Honker, Water Quality Protection Division
       David Garcia, Multimedia Planning and Permitting Division
       Missy Milbeck, Comptroller
       Susan Jenkins, Audit Liaison
       Donna Miller, Grants Management Officer




13-4-0296                                                          20
                                                                                        Appendix C

                NMED’s Comments on the Draft Report
                        and OIG Evaluation

                                 State of New Mexico 

                             ENVIRONMENT DEPARTMENT 


                                    Office of the Secretary

                                      Harold Runnels Building                           DAVE MARTIN
SUSANA MARTINEZ
Governor                       1190 Saint Francis Drive, PO Box 5469                       Secretary
JOHN A. SANCHEZ                      Santa Fe, NM 87502-5469                           BUTCH TONGATE
Lieutenant                 Telephone (505) 827-2855 Fax (505) 827-2836                 Deputy Secretary
                                      www.nmenv.state.nm.us



April 8, 2013

Lela Wong
Project Manager
USEPA Office of the Inspector General
75 Hawthorne Street, 7th Floor (IGA-1)
San Francisco, CA 94105

RE:     Response to OIG Report: Project No. OA-FY12-0497

Dear Ms. Wong:

The New Mexico Environment Department (NMED) offers the following responses for the
findings contained within the Office of Inspector General audit report entitled Labor-Charging
Practices at the New Mexico Environment Department, dated February 21, 2013. It is the
position of the NMED that the deliverables required by each federal award were completed
within the grant cycle. Additionally, all expenditures charged to the federal awards were
legitimate, properly allocable and in direct function with the grant-related activities. The report
appropriately does not allege that NMED committed fraud, waste or abuse; rather, a lack of
proper procedural documentation of some of NMED’s activities resulted in audit findings.
Finally, in some cases, NMED both received written and verbal approval of our time and labor
practices from EPA based on the time and labor practices which was percentage based.




13-4-0296                                                                                              21
 OIG Response 1. As stated in chapter 1 of our report, the objective of our audit is to
 determine whether labor-charging practices at NMED comply with federal requirements and
 the effect of any noncompliance on amounts NMED claimed under EPA awards. We did not
 address grant deliverables or expenditures other than labor. We reported that three of the
 four NMED bureaus audited (DWB, AQB, and SWQB) did not always comply with the
 labor-charging requirements in 2 CFR Part 225.

 In chapter 2 of our report under the subheading “NMED Believed Charges Based on
 Budget Estimates Were Acceptable,” we addressed NMED’s comment concerning the
 approval of its time and labor practices by the EPA.


Upon notification of the improper procedures and to fully comply with 2 CFR Part 225 the
NMED changed the time and labor procedures. Staff who work on federal grants are now
required to charge time and labor hour based on actual activities performed. Staff is required to
maintain and upon request, provide personal activity reports justifying the work activities
supported by the grant(s). In addition, signed certification from staff that work solely on federal
grants are required and will be available upon request.

 OIG Response 2. We acknowledged in our report under the “Noteworthy Achievements”
 subheading that current practices at the four bureaus audited are in compliance with federal
 requirements. It is NMED’s responsibility to ensure that its timekeeping practices continue
 to comply with federal requirements.


NMED also notes that there were no findings of non-compliance related to time and labor
reporting that qualified the opinion of the Single Audit for the time periods involved, with the
only exception being for the State Fiscal Year 2012 Single Audit. The qualification was based
on the disclosure of the OIG Audit. Additionally, year-end reviews with each grant program and
EPA have all been favorable and the NMED has never been notified that the agency had been
conducting business improperly or contrary to 2 CFR 225 standards.

 OIG Response 3. We addressed this comment in chapter 2 of our report under the “NMED
 Believed Charges Based on Budget Estimates Were Acceptable” subheading, paragraphs
 2 and 3. It appears that the single auditor had different criteria for risk assessment from the
 OIG. Risk assessment method and criteria may vary for each audit based on the auditor’s
 judgment. An audit provides reasonable but not absolute assurance that the information
 presented is free of material misstatement.

 We also discussed programmatic reviews with Region 6 staff. They indicated their reviews
 verified the drawdowns were supported by source documentation. The reviews did not
 include interviews and other procedures to ensure that labor-charging practices comply with
 federal requirements.




13-4-0296                                                                                          22
NMED is disappointed that the IOG audit team did not accept documentation which verifies that
NMED staff worked on the activities of the grants in question. Documentation included a work
history report that identifies staff, travel dates, description of work activity, time and labor costs,
and travel costs. The NMED also provided copies of e-mails and meeting notes that, in our
opinion, clearly indicated that EPA was aware of and approved the time and labor procedures.

 OIG Response 4. We addressed the documentation cited above and explained why the
 documentation did not comply with federal requirements. Details of the work history reports
 can be found in chapter 2 of our report under the subheading “NMED Claimed
 Unallowable Costs,” last paragraph. EPA’s approval was addressed in chapter 2 of our
 report under subheading “NMED Believed Charges Based on Budget Estimates Were
 Acceptable,” last two paragraphs.


NMED would also like to point out that the difficulty in supplying supporting documentation for
some grants is based on the fact that the time period covered by a single grant extended several
years – in one case from July 4, 2004 through June 30, 2012. If the time periods between the
issuance and completion of each grant were shorter, it would be significantly less burdensome to
reconcile labor charges with applicable funding sources. Financial software changes and staff
changes limit the state’s ability to retain historical knowledge and documentation through the
extended life of the grant and retention period.

 OIG Response 5. We indicated in chapter 1 of our report that all of the grants in our review
 were within the records-retention period. Title 40 CFR § 31.42(b) states that records must be
 retained for 3 years from the date the recipient submits its final expenditure report.


NMED and EPA have discussed several times the need for training by EPA’s grant management
staff. At a minimum, the training should cover the accountability measures that should be
followed by both grantee and grantor financial and program staff to ensure that grant activities
are accurately recorded and appropriately funded. The requirement for such training would be a
reasonable recommendation to address the OIG’s audit findings.

 OIG Response 6. Training on the proper procedures for identifying, accumulating and
 reporting labor costs would help to eliminate the problems we noted during our review.
 However, it is NMED’s responsibility to ensure that its employees obtain the proper training
 to comply with federal requirements.


The NMED respectfully requests that the agency should not be required to return any federal
dollars. A punitive penalty to the NMED would jeopardize the ability to perform the day to day
functions of the agency. The NMED is not in a position financially to fully support the functions
and activities required by our mission without co-reliance on the federal awards to assist in
meeting the objectives of the agency. At this time EPA and NMED are working collaboratively
to justify expenditures were appropriate.



13-4-0296                                                                                           23
 OIG Response 7. It is the responsibility of Region 6 to determine whether funds should be
 returned, not the OIG. In addition, NMED can only be reimbursed for expenditures that
 comply with federal requirements. As stated in our audit report, NMED’s labor-charging
 practices did not comply with federal requirements.



Sincerely,



F. David Martin
Cabinet Secretary




13-4-0296                                                                                    24
                                                                   Appendix D
                                     Distribution

Regional Administrator, Region 6 

Deputy Regional Administrator, Region 6 

Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Audit Follow-Up Coordinator, Region 6 

Public Affairs Officer, Region 6 

Secretary, New Mexico Environment Department




13-4-0296                                                                  25
